                                                            U.S. Department of Housing and Urban Development
                                                            Region 4, Office of Inspector General
                                                            Office of Audit, Box 42
                                                            Richard B. Russell Federal Building
                                                            75 Spring Street, SW, Room 330
                                                            Atlanta, GA 30303-3388
                                                            (404) 331-3369




                                                          MEMORANDUM NO:
                                                          2010-AT-1803
December 18, 2009

MEMORANDUM FOR:              Gary A. Causey, Director, Jacksonville Community Planning and
                              Development, 4HD


              //signed//
FROM:         James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:      Hillsborough County, FL, has the Capacity To Administer its Neighborhood
               Stabilization Program and To Accurately Enter Commitments for its HOME
               Investment Partnerships Program


                                     INTRODUCTION

We reviewed the County of Hillsborough’s (County) Neighborhood Stabilization Program (NSP)
and its HOME Investment Partnerships Program (HOME) as part of our fiscal year 2009 annual
audit plan for community development and American Recovery and Reinvestment Act of 2009
(ARRA) programs. We selected the County for review because it received more than $19
million in NSP funds and in 2008, HUD rated the County’s HOME program as high risk. Our
objectives were to determine whether the County had the capacity to effectively and efficiently
administer its NSP and whether it accurately reported HOME commitments within HUD’s
Integrated Disbursement and Information System (IDIS).

We provided a draft memorandum to the County on November 25, 2009, and received written
comments on December 10, 2009. We have included the comments in appendix B. The County
agreed to correct the conditions raised by the review.

For each recommendation without a management decision, please respond and provide status
reports in accordance with U.S. Department of Housing and Urban Development (HUD)
Handbook 2000.06, REV-3. Please furnish us copies of any correspondence or directives issued
because of the audit.
                              METHODOLOGY AND SCOPE

To accomplish our objectives for NSP, we

       Reviewed applicable statutes, regulations, and relevant HUD NSP requirements;

       Reviewed the County’s policies and procedures relevant to NSP;

       Interviewed HUD and County officials regarding the County’s NSP operations and
       staffing;

       Reviewed the County’s NSP substantial amendment to its consolidated plan and its NSP
       grant agreement with HUD;

       Reviewed the County’s organizational chart, job descriptions, and relevant
       documentation related to its administration of NSP; and

       Reviewed the County’s procurement notices and scoring tabulations for each of six
       executed service contracts, one of seven subrecipient agreements, and the one property
       acquisition that had been completed at the time of our review.

To accomplish our objectives for HOME, we

       Reviewed and obtained an understanding of relevant HOME regulations, program
       guidance, and criteria;

       Obtained and reviewed reports from HUD’s IDIS and Web site;

       Reviewed HUD’s monitoring reports for the County’s HOME program;

       Reviewed the County’s internal audit and external review reports;

       Reviewed the County’s consolidated annual performance and evaluation report for its
       HOME program;

       Reviewed the County’s procedures and controls used to administer HOME program
       commitments;

       Interviewed HUD and County officials regarding the County’s HOME operations; and

       Conducted tests to determine the accuracy of commitments the County entered into IDIS
       for the period October 1, 2006, through June 30, 2009. During this period, the County
       committed more than $11.4 million in HOME funds, of which we examined more than
       $9.4 million, or 83 percent. We examined all commitments that the County entered into
       IDIS that equaled or exceeded $50,000 to cover the most significant commitment

                                               2
       amounts. The results of the review apply only to the tested activities and cannot be
       projected to the universe or total population.

We performed our on-site review work from July through September 2009, at the County’s
office located in Tampa, FL, and at HUD’s office in Jacksonville, FL. The review covered the
period October 2006 through June 2009 and was expanded as determined necessary.

For this report, our work was not conducted in accordance with generally accepted government
auditing standards; however, this fact had no effect on the conditions identified in this report.
We designed the review to be proactive and focus on prevention; thus, this report was
significantly reduced in scope to the items and conditions discussed in this report.


                                        BACKGROUND

NSP – Authorized under Division B, Title III, of the Housing and Economic Recovery Act of
2008 (HERA), as amended, NSP provides grants to every State and certain local communities to
purchase foreclosed-upon or abandoned homes and to rehabilitate, resell, or redevelop these
homes to stabilize neighborhoods and stem the decline in value of neighboring homes. HUD
allocated more than $3.9 billion in NSP funds to grantees.

HUD allocated more than $19 million in NSP funds to the County based upon the funding
formula developed by HUD pursuant to HERA. On March 3, 2009, HUD entered into a grant
agreement with the County for the full amount allocated. The County’s primary focus of the
NSP funding is the acquisition and rehabilitation or demolition and reconstruction of single-
family properties for sale to eligible home buyers. The County’s NSP budget consists of $16.3
million for the purchase and rehabilitation of abandoned or foreclosed-upon residential
properties, $100,000 to establish land banks for foreclosed-upon properties, $100,000 for the
demolition of blighted structures, more than $700,000 for the redevelopment of demolished or
vacant properties, and more than $1.9 million for planning and administrative costs. The County
also revised its amendment to the action plan to include financing mechanisms for the purchase
and redevelopment of foreclosed-upon residential properties and to commence activity in its
secondary target areas.

On February 17, 2009, the President signed ARRA. ARRA provides an additional $2 billion in
NSP funding (referred to as NSP2) that will be made available on a competitive basis. On July
16, 2009, the County submitted an application to HUD for more than $19 million in NSP2
funding, but HUD had not made a funding decision on the application.

HOME program – The HOME program is authorized under Title II of the Cranston-Gonzalez
National Affordable Housing Act, as amended. The program provides funds for the purpose of
increasing the supply of affordable standard rental housing; improving substandard housing for
existing homeowners; assisting new home buyers through acquisition, construction, and
rehabilitation of housing; and providing tenant-based rental assistance.




                                                 3
HUD awarded the County more than $7.4 million in HOME funding for program fiscal years
2006 through 2008. During this period, HUD recaptured more than $2 million in HOME funds
from the County due to commitment shortfalls. In 2008, HUD rated the County’s HOME
program as high risk. Due to the recapture and other issues identified from its internal and
external reviews, the County reevaluated its programs and restructured its staff to improve the
operations of its Affordable Housing Department, which administers its NSP and HOME funds.

Hillsborough County is governed by a seven member Board of County Commissioners. The
Board appoints the County Administrator who serves as the County’s Chief Executive Officer
and is responsible for carrying out all decisions, policies, ordinances and motions made by the
Board.

                                    RESULTS OF REVIEW

The County Demonstrated Adequate Capacity to Administer Its NSP Funding

Based on the review, the County had the capacity to administer its NSP. The County had made
substantial and effective revisions to its organization and staffing to correct many of the past
performance problems identified by HUD and its own internal assessments. It had established
and implemented adequate NSP procedures, followed proper procedures in the procurement of
contract services, hired or was in the process of hiring an adequate number of qualified staff, and
arranged for other County departments to assist with NSP workload and was progressing in
carrying out its NSP.

The County had obligated or was in the process of obligating more than $1.6 million for property
acquisitions, excluding program administration, that were located in areas of greatest need as
designated in its substantial amendment. The obligated amounts included more than $460,000
for completed property acquisitions. The pending obligations included more than $1.2 million
for acquisitions with scheduled closings ($510,000) and pending offers ($702,000).

Obligations and Expenditures Were Not Entered into HUD’s Disaster Recovery Grant
Reporting System on a Timely Basis

As of October 1, 2009, the County had not entered any obligations or expenditures into the
Disaster Recovery Grant Reporting (DRGR) system, although it had obligated and expended
more than $192,000 of its NSP funds. We also noticed that its staff had not obtained training on
the use of the system and that its policy did not address timeliness for entering and reporting
obligations and expenditures in the system. In addition, the County’s DRGR policy did not
define what constituted an NSP obligation and the documentation required to properly support an
obligation.

HOME Commitments

The County had a past problem with making inaccurate commitment entries into IDIS. We
identified more than $748,000 in incorrect commitment entries made to IDIS before the County
improved its controls. The inaccurate entries subjected the County to more than $61,000 that is

                                                 4
subject to recapture by HUD because it did not ensure that written agreements were executed
before it committed activities in IDIS. Regulations at 24 CFR (Code of Federal Regulations)
92.2(1) require that a commitment be supported by a legally binding executed written agreement.
Regulations at 24 CFR 92.500(d) state that any funds in the U.S. Treasury account that are not
committed within 24 months after the last day of the month in which HUD notifies the
participating jurisdiction of HUD’s execution of the HOME agreement are subject to reduction
or recapture by HUD.

We reviewed all HOME commitments that the County entered into IDIS that equaled or
exceeded $50,000 for the period October 1, 2006, to June 30, 2009. The period incorporated the
County’s 24-month commitment deadlines that ended on October 31, 2007, and October 31,
2008. During this period, the County committed more than $11.4 million for 130 activities, of
which we examined more than $9.4 million for 60 activities. We identified more than $748,000
in inaccurate commitment entries for 11 activities that were not supported by executed written
agreements at the time County staff entered the commitments into IDIS. The inaccurate entries
occurred before or shortly after the County reevaluated and restructured the operations of its
Affordable Housing Department to address deficiencies that HUD had previously identified.
The previous deficiencies caused HUD to recapture a portion of the County’s HOME funds
because the County did not meet the program’s commitment deadline.

The inaccurate entries identified by the audit ($748,345) included $329,045 made between
November 17, 2006, and July 2, 2008, for four activities for which the written agreements were
executed between 10 and 286 days after the County’s commitment deadline. We reassessed the
County’s commitment compliance by adjusting the October 31, 2007, balance in the deadline
compliance status report to exclude the four inaccurate entries. The adjustment resulted in a
shortfall of more than $61,000 that is subject to recapture by HUD.

                                                                     October 31, 2007,
                             Description
                                                                         deadline
                 Commitment requirement                                $24,418,217 *
                 Total commitment reported                              24,686,006 *

                 Excess in commitments                                          267,789
                 Less incorrect commitments                                    (329,045)
                 identified by the audit
                 Adjusted balance (shortfall)                            $      (61,256)
     * Figures obtained from HUD’s HOME Deadline Compliance Status Report for 2005 Commitments, dated 11/30/07.



The remaining $419,300 in inaccurate commitment entries ($748,345-$329,045) did not cause a
shortfall as of the County’s deadline compliance date and did not subject the County to further
recaptures by HUD.

The results of our sample supported the County’s claim that it had implemented improvements
that corrected past problems with making inaccurate commitment entries to IDIS. For instance,
the last inaccurate commitment entry identified in our sample was made on July 2, 2008. For the
period July 3, 2008, through March 25, 2009, our sample included 31 commitment entries,

                                                              5
totaling more than $3.2 million that were accurate and properly supported. The accurate entries
during this later period supported the County’s claim that it had corrected its past deficiencies
concerning the accuracy of commitment entries made to IDIS.


                                   RECOMMENDATIONS

We recommend that the Director of HUD’s Jacksonville Office of Community Planning and
Development

   1A.     Require the County to mandate that all staff with DRGR responsibilities complete in
           house and or HUD assisted training on use of the system to ensure timely and proper
           entry of NSP obligations, expenditures, and performance reporting.

   1B.     Require the County to amend its draft DRGR policy to include timeliness for entering
           and reporting NSP obligations and expenditures, defining what constitutes an NSP
           obligation, and describing the type of documentation to be kept to support NSP
           obligations.

   1C.     Recapture $61,256 in HOME funds which the County did not commit by the 24-
           month statutory deadline.




                                                6
                                   APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE



                     Recommendation               Funds to be put to
                            number                     better use 1/
                          1C                                $61,256



1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if our recommendation is implemented,
     HUD will recapture $61,256 in funds not committed by the 24-month statutory
     commitment deadline.




                                             7
Appendix B
             AUDITEE COMMENTS




                    8
9
10
Comment 3




   11
12
